<html>
<title> - YEMEN UNDER ATTACK BY IRANIAN-BACKED HOUTHIS</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]





                         YEMEN UNDER ATTACK BY 
                         IRANIAN	BACKED HOUTHIS

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    THE MIDDLE EAST AND NORTH AFRICA

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 14, 2015

                               __________

                           Serial No. 114-32

                               __________

        Printed for the use of the Committee on Foreign Affairs

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/
                               ______
 
                          U.S. GOVERNMENT PUBLISHING OFFICE 
 
 94-179 PDF                     WASHINGTON : 2015 
 -----------------------------------------------------------------------
   For sale by the Superintendent of Documents, U.S. Government Publishing 
   Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
          DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
 
 
 
 
 
 
 
 
 
 
                     COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York
TOM EMMER, Minnesota

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

            Subcommittee on the Middle East and North Africa

                 ILEANA ROS-LEHTINEN, Florida, Chairman
STEVE CHABOT, Ohio                   THEODORE E. DEUTCH, Florida
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
DARRELL E. ISSA, California          BRIAN HIGGINS, New York
RANDY K. WEBER SR., Texas            DAVID CICILLINE, Rhode Island
RON DeSANTIS, Florida                ALAN GRAYSON, Florida
MARK MEADOWS, North Carolina         GRACE MENG, New York
TED S. YOHO, Florida                 LOIS FRANKEL, Florida
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York


















                            C O N T E N T S

                              ----------                              
                                                                   Page

                                WITNESS

The Honorable Gerald M. Feierstein, Principal Deputy Assistant 
  Secretary, Bureau of Near Eastern Affairs, U.S. Department of 
  State..........................................................     8

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Gerald M. Feierstein: Prepared statement...........    10

                                APPENDIX

Hearing notice...................................................    30
Hearing minutes..................................................    31
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement..........    32

 
                         YEMEN UNDER ATTACK BY 
                         IRANIAN-BACKED HOUTHIS

                              ----------                              


                        TUESDAY, APRIL 14, 2015

                     House of Representatives,    

           Subcommittee on the Middle East and North Africa,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 2 o'clock p.m., 
in room 2172 Rayburn House Office Building, Hon. Ileana Ros-
Lehtinen (chairman of the subcommittee) presiding.
    Ms. Ros-Lehtinen. The subcommittee will come to order. 
After recognizing myself and Ranking Member Deutch for 5 
minutes, as soon as he shows up, each for our opening 
statements, I will then recognize other members seeking 
recognition for 1 minute.
    We will then hear from our witness and without objection, 
Mr. Ambassador, your prepared statements will be made a part of 
the record. Members may have 5 days in which to insert 
statements and questions for the record, subject to the length 
limitation and the rules.
    I would like to note for the record that the subcommittee 
invited the Department of Defense to send an official to 
testify before us this afternoon, but DoD stated that they were 
unable to participate at this hearing and declined to come. But 
we got the better of the deal, because we have you, Mr. 
Ambassador.
    The Chair now recognizes herself for 5 minutes. On 
September 10th of last year, President Obama announced to the 
American public his plan to degrade and destroy the terrorist 
group ISIL. While making his case for America's role in the 
fight against ISIL, the President highlighted our strategy in 
Yemen and held it up as a model of success to be emulated in 
the fight against ISIL. Yet, about a week later, the Iran-
backed Houthis seized control of the capital and the 
government. Despite this, the administration continued to hail 
our counterterror operations in Yemen as a model for success, 
even though we effectively had no partner on the ground since 
President Hadi was forced to flee. But perhaps even more 
astonishingly, in what could only be described as alarmingly 
tone deaf and short sighted, when Press Secretary Earnest was 
asked at a press briefing if this model was still successful 
after the Yemeni central Government collapsed and the U.S. 
withdrew all of our personnel including our special forces, he 
said yes, despite all indications pointing to the contrary.
    So where do we stand now? That is the important question. 
President Hadi was forced to flee. Saudi Arabia has led a 
coalition of over 10 Arab nations in Operation Decisive Storm, 
which so far has consisted of air strikes only, but very well 
could include ground forces in the near future. Iran feels 
emboldened in Yemen because of the leverage it has gained over 
the administration through the nuclear negotiations, but I 
commend that the Gulf countries, the GCC countries were taking 
a strong stance against Iran and stepping up to the plate in 
Yemen. Despite their action, the Houthis actually control more 
territory now than they did before the Saudi response. Our 
Embassy is closed. Our personnel have been evacuated and there 
is no Hadi government to speak of. And al-Qaeda in the Arabian 
Peninsula (AQAP) has taken advantage of the fighting and has 
capitalized on the deteriorating situation in Yemen, and we 
have very little visibility into their movements or their 
actions.
    I am concerned that the AQAP, the al-Qaeda in the Arabian 
Peninsula, has gained ground in eastern Yemen and has been left 
virtually unchecked to recruit and train. Let us not forget 
that it was AQAP that was responsible for the Paris attacks 
earlier this year or that it was al-Qaeda in the Arabian 
Peninsula that was responsible for overtaking a prison last 
month and releasing several hundreds of prisoners including a 
senior operative of al-Qaeda.
    AQAP's leader is a follower of bin Laden and like bin Laden 
also seeks to strike Western targets, including right here in 
our homeland in the United States.
    Iran has reportedly dispatched a naval destroyer near Yemen 
in a game of chicken over one of the most important shipping 
routes in the Gulf of Aden. This area is a gateway between 
Europe and the Middle East and Iran must not be allowed to 
escalate any tensions or attempt to disrupt the shipping lanes.
    Yet, we continue to see the administration make the same 
mistakes it made in Syria. And just like in Syria, today Yemen 
is in utter chaos in large part due to Iran's antagonism and 
meddling. But we must learn our lesson from Syria and engage in 
the Yemeni crisis head on with a comprehensive strategy before 
it spirals further out of control. There will be no political 
solution in Yemen based on the GCC initiative or restarting the 
National Dialogue Conference that collapsed in early 2014 
without addressing the underlying issues. The Houthis were 
reluctant participants in the National Dialogue in Yemen, but 
it was clear that they had no interest in ceding power over to 
a centralized government. As a result, they withdrew from the 
National Dialogue. It collapsed and the Houthis took control of 
Sana'a and now other areas. So why would the administration 
think that the circumstances have changed that would allow for 
a reconciliation to occur?
    It is naive and dangerous to believe that a political 
solution is achievable as long as the Houthis are unwilling to 
cede their power and as long as Iran continues its support for 
these fighters, just like it is naive and dangerous to believe 
that a political solution in Syria is achievable as long as 
Assad remains in power.
    Even more absurd is the fact that Iran, just this morning, 
has allegedly proposed a peace plan for Yemen. This is the same 
Iran that continues to use its terrorism tentacles throughout 
the region to undermine U.S. interests by supplying arms and 
fighters aimed to further destabilize its neighboring 
countries.
    So today, we hope to hear from the administration that we 
have a comprehensive plan on how to get to a political 
solution, rather than just supporting a reconciliation process 
while also addressing the current gap in our intelligence and 
counterterror capabilities in Yemen, as well as the 
deteriorating humanitarian situation. Because if we act in 
Yemen in the same way that we have acted in Syria, then we are 
likely going to see the same crisis follow in Yemen, a war with 
no end in sight, the rise of dangerous terror groups, a dire 
humanitarian crisis, and Iran's increased power grab in the 
region.
    And with that, I will go to Mr. Connolly for perhaps 1 
minute because when Mr. Deutch comes, he will give his 5 
minutes.
    Mr. Connolly is recognized.
    Mr. Connolly. Thank you, Madam Chairman, and thank you for 
having the hearing. In listening to the recitation just now of 
what happened in Yemen and what happened in Syria, one would, I 
guess, infer or one is meant to infer that it is all the 
problem and result of policies pursued or not pursued by 
President Obama and his administration. Nothing could be 
further from the truth.
    The inherent instability in Yemen is not new and it 
certainly is not unique to the administration currently in 
power. Yemen is inherently unstable. It has multiple militia 
forces and jihadist forces at work. Towns have been taken and 
retaken and transferred. Terrorism and brutality have occurred 
and we may very well--there are movements to bifurcate the 
country as it once was.
    The instability in the region is not the fault or the 
responsibility of any administration. Our question really has 
to be how do we respond when there are no good options? So how 
do we do the least harm? How do we limit our exposure? How do 
we try, however indirectly, to effect outcomes positively?
    I don't think throwing pot shots at this administration as 
if it were omnipotent on the world scene, especially in this 
region, is very helpful. Thank you, Madam Chairman.
    Ms. Ros-Lehtinen. Thank you, Mr. Connolly. Mr. Chabot of 
Ohio.
    Mr. Chabot. Thank you, Madam Chair, for holding this 
hearing. I want to say at the outset that I have an honor 
flight coming in shortly and I have somebody from Bangladesh 
back here, the speaker of the House, that I have to meet with, 
so I am not going to be able to stay for the testimony, but I 
will have staff here and I will certainly read the testimony.
    So, I was chair of this committee a while back and during 
that time, I went to Yemen, and I think Mr. Connolly is right. 
There have been problems there for years, but I would argue 
that they certainly have gotten worse under this administration 
and you know, it was this administration that claimed that 
Yemen was a success story and clearly, it has been anything but 
that.
    When we were on our way over there, there was a terrorist 
attack on a graduation at the military barracks and over 100 
new soldiers were murdered by terrorists. So this has been 
going on for a while, but the problems in Yemen are just 
incredible. I think the thing that is particularly disturbing 
is the Iranian involvement there and around the region. Four or 
five capitals now in the region are controlled by the Iranians. 
So it is a very dangerous situation. I look forward to the 
testimony. Even though I won't be here, I will certainly review 
that testimony. And thank you for being here, Mr. Ambassador.
    Ms. Ros-Lehtinen. Thank you, Mr. Chabot. And good luck with 
that honor flight. It is always very emotional. And we will 
recognize Mr. Deutch after the 1 minute, with his consent. We 
will go to Mr. Higgins of New York.
    Mr. Higgins. Thank you, Madam Chair, for holding this 
important hearing, you know, another trouble spot in a region 
that has pervasive trouble. There are no good options here for 
the United States, but obviously we have a great interest in 
trying to influence stabilization in that region. So I am very 
curious to hear the thoughts of our distinguished panelists 
today.
    Additionally, it was announced that the U.N. Security 
Council imposed an arms embargo on the Houthi fighters bent on 
for control of Yemen and that resolution which is legally 
binding prohibits the sale of weapons to three named Houthi 
leaders, its former president, and his son. So I am just kind 
of curious as to what, if any, impact that resolution will have 
relative to the dynamic that is going on in Yemen right now. 
Thank you very much for being here.
    Ms. Ros-Lehtinen. Thank you, excellent question. Mr. Wilson 
of South Carolina.
    Mr. Wilson. Thank you, Madam Chair, and thank you for 
leadership on this issue.
    And Ambassador, I just can't imagine a more extraordinary 
time for you to be serving as the Deputy Assistant Secretary 
for the Bureau of Near Eastern Affairs. And hey, I want you to 
succeed, but I am obviously very concerned about the Yemeni 
evacuation, what this means for the security of the United 
States and our allies. I am obviously concerned about Libya, 
its dissolution, the murders at Benghazi, with the rise of 
ISIL, the failure to have a status force agreement with Iraq 
which leads to destabilization of Iraq, the regime in Iran 
which has an ideology of death to America, death to Israel. 
That is their plan. And as they are moving ahead with nuclear 
capability, also building missiles to include an ICBM which 
could only be interpreted as a threat to the American people 
and American families. And then finally, of course, I am very 
concerned about chaos and civil war in Syria, the purported red 
line of the President which simply did not have any life and 
credibility. But hey, I still want you to succeed, and so I 
look forward to working with Chairwoman Ileana Ros-Lehtinen for 
your success. Thank you.
    Ms. Ros-Lehtinen. Thank you, Mr. Wilson. Mr. Cicilline of 
Rhode Island.
    Mr. Cicilline. Thank you, Madam Chairman, and Ranking 
Member Deutch for holding this very timely hearing. And thank 
you, Mr. Ambassador, for being here today.
    I think it is safe to say that the quick deterioration of 
the situation in Yemen took many people here in Washington by 
surprise. For many years, Yemen was held up as an example of 
counterterrorism cooperation and it looked as though a 
political agreement might be achieved in the aftermath of the 
Arab Spring. The United States provided approximately $900 
million in foreign aid to Yemen since the transition in 2011 to 
support counterterrorism and political reconciliation, the 
economy, and humanitarian aid.
    Now we face a vastly different landscape and have to revise 
our assumptions and expectations. Furthermore, we risk being 
drawn deeply into another Iranian-backed armed conflict in the 
Middle East.
    I would particularly like to hear from the witness, you, 
Mr. Ambassador, how we might have better detected the oncoming 
Houthi rebellion, and what, if anything, could have been done 
to prevent it, what the U.S. role is and should be in the 
conflict between the parties in Yemen and how we are 
cooperating with regional partners and what the processes are 
for a solution to this conflict.
    I am also very concerned about the plight of civilians in 
one of the poorest countries in the world. Its fighting and 
political chaos has disrupted an already fragile economy, and 
prevents access to food, water, and medical care and I would 
like to hear from you what we are doing to alleviate the 
humanitarian situation. Thank you very much. I look forward to 
your testimony. I yield back.
    Ms. Ros-Lehtinen. Excellent questions. Thank you. Dr. Yoho 
does not need to address the panel now. So we will go to Ms. 
Meng of New York.
    Ms. Meng. Thank you, Chair, and Ranking Member for 
assembling this hearing, and our distinguished Ambassador for 
joining us here today.
    On January 21st, a fragile power-sharing deal between 
democratically-elected President Hadi and the Houthi rebel 
group in Yemen fell apart and the Houthis began seizing control 
of large portions of Yemen. These actions were troubling 
because of the Houthis' illegal usurpation of power and their 
immediate dissolving of the Yemeni Parliament. Besides their 
complete disregard for democratic principles, the Houthis have 
very close ties to Iran which is supporting their aggression 
and seeking to expand its own sphere of influence in the Middle 
East.
    On March 26th, Saudi Arabia and more than 10 Arab partners 
began air strikes to weaken the Houthi stronghold and reinstate 
President Hadi to the presidency. While I am in support of Arab 
solidarity and intervention here, I am deeply concerned about 
the possibility of a large humanitarian crisis in Yemen and 
look forward to delving into these issues this afternoon. I 
yield back.
    Ms. Ros-Lehtinen. Thank you, Ms. Meng. Ms. Frankel of 
Florida.
    Ms. Frankel. Thank you, Madam Chair, Mr. Ambassador, thank 
you for being here.
    We have heard some of my colleagues here describe Iran's 
support for the Houthi forces as another Iranian takeover in 
the region. And so I am going to be--I am interested in your 
assessment of that, given that the Houthis ruled northern Yemen 
for nearly a millennium and have been seeking recourse for 
decades now, with strong ties to the former regime. So I hope 
that you can put Iran's involvement in Yemen in this broader 
context, if you would, and just would add to the question what 
extent does Iran actually control events in Yemen? Is it more 
than funding, supplies, weapons or are there Iranian forces 
actually directing action in the country as we have seen in 
Syria and Iraq? I yield back.
    Ms. Ros-Lehtinen. Thank you so much. Thank you, Ms. 
Frankel. And we were all the warm-up group for our lead guy, 
Mr. Ted Deutch of Florida.
    Mr. Deutch. Thank you, Madam Chairman, for calling today's 
hearing and allowing us to address the recent troubling events 
in Yemen. Deputy Assistant Secretary Feierstein, welcome back. 
I understand you just returned from the Gulf. We look forward 
to hearing the administration's assessment of the conflict, its 
impact on broader regional politics, and what role we should 
play going forward.
    Following the deposition of Yemen's long time autocratic 
ruler Saleh in 2011, the U.S. supported an inclusive transition 
process, via national dialogue, into rebuilding the country's 
political and governmental institutions and bridging gaps 
between groups that have had a long history of conflict. 
Yemen's first newly-elected leader, President Hadi, made clear 
his intentions to cooperate closely with the United States. 
Hadi's government remained a partner in counterterrorism 
cooperation and operations. Yemen, the poorest country on the 
peninsula, needed support from the International Community. The 
United States has long viewed Yemen as a safe haven for al-
Qaeda terrorists and there is alarming potential for 
recruitment by terrorist groups given the dire economic 
conditions that they face.
    In fact, U.S. Department of Homeland Security considers al-
Qaeda and the Arabian Peninsula the affiliate most likely, the 
al-Qaeda affiliate, most likely to attempt transnational 
attacks against the United States.
    And while the national dialogue was initially viewed as 
successful, the process concluded in 2014 with several key 
reforms still not completed, including the drafting of a new 
constitution. The Hadi government had continued to face deep 
opposition for Yemen's northern tribes, mainly the Shiite 
Iranian-backed Houthi rebels. Over the past year, the Houthis 
in coordination with tribes and military units, still loyal to 
Saleh, began increasing their territorial control, eventually 
moving into Sana'a. Saleh had long been thought to have used 
his existing relationship to undermine the Hadi government.
    The Houthis are well trained, well-funded, and experienced 
fighters, having fought the Yemeni Government and Saudi Arabia 
in 2009.
    Now much has been written by experts and analysts about how 
deep Iran's connection to the Houthis go. Some argue it is 
overblown and that while the Houthis welcome Iranian support, 
they are not an Iranian proxy in the same way as Hezbollah. 
Others suggest that the United States has not in the past 
recognized how deep the level of support provided by Iran is or 
what Iran's real motives are in supporting the Houthis. Perhaps 
the fullest extent of Iran's involvement remains unknown, but 
as Secretary Kerry said last week, there are obviously supplies 
that have been coming from Iran, he said. There are a number of 
flights every single week that have been flying in. We trace 
those flights and we know this. We are well aware of the 
support that Iran has been giving to Yemen and Iran needs to 
recognize that the United States is not going to stand by while 
the region is destabilized or while people engage in overt 
warfare across lines, international boundaries of other 
countries.
    The most troubling question, I think to examine today, is 
whether the conflict in Yemen has now become a symptom of a 
larger power struggle in the Gulf. The Saudi-led military 
intervention is now in its third week. The U.S. has been 
providing resources in support to our regional partners, 
engaged on the ground.
    Madam Chairman, I would point out that this is yet another 
example of why we must act in the closest of security 
cooperation with our Gulf friends to counter all of Iran's 
destabilizing activities in the region. And I was pleased to 
see reports this morning that indicated the United States has 
stepped up our support inspecting ships bound for Yemen in 
search of arms.
    Similarly, today's 14 to nothing vote by the Security 
Council to impose an arms embargo on the Houthis is a welcome 
step and a needed show of unity from the International 
Community.
    Iran is, in turn, responding, sending a flotilla to the 
Gulf of Aden. And last week on social media, Iran's Supreme 
Leader personally attacked Saudi Arabia and its defense 
ministers tweeting ``inexperienced youths have taken over the 
affairs of the state and are replacing dignity with 
barbarity.''
    As Members of Congress, we are often asked by our 
constituents by the U.S. should be involved in what goes on in 
the Middle East. They tell us the years of conflict won't be 
solved by U.S. intervention. But Yemen is a clear example of 
what is in our national interest. We cannot allow groups like 
al-Qaeda and the Arabian Peninsula which tried to attack the 
United States in 2009, in 2011, and in 2012, to take advantage 
of chaos in Yemen. We need the Yemeni Government that is going 
to be a partner in our counterterrorism and regional security 
efforts.
    And finally, the people of Yemen have long suffered under 
dire economic conditions. The population has more than 
quadrupled in the past 30 years. Conflict is only making the 
humanitarian situation worse. Saudi Arabia is delivering 
medical and humanitarian supplies, but it is necessary for the 
International Community to continue to support the people of 
Yemen. We have seen all too well how quickly humanitarian 
crises can slip from the front pages of our papers.
    Ambassador Feierstein, thank you again for being here. 
Given that U.S. personnel has been evacuated, we look to you to 
tell us where U.S. policy toward Yemen currently stands. Will 
we continue to see increased level of involvement in the Saudi-
led intervention? How can the two U.N. Security Council 
resolutions pertaining to Saleh be enforced? And can there 
ultimately be a military solution to Yemen's internal crisis. 
We look forward to your responses and appreciate your being 
here. I yield back.
    Ms. Ros-Lehtinen. Thank you very much, Mr. Deutch, an 
excellent statement.
    And we are so pleased to welcome Ambassador Gerald 
Feierstein, who is the Principal Deputy Assistant Secretary of 
the Bureau of Near Eastern Affairs. Previously, he served as 
our Ambassador to Yemen from 2010 to 2013, so he knows this 
area very well. He has served in several different postings 
throughout the Middle East, including as Deputy Chief of 
Mission in Islamabad and Deputy Counsel General in Jerusalem.
    Thank you for your service, Mr. Ambassador. We look forward 
to your testimony. And may I point out your lovely fiance 
sitting behind you. Welcome. Does she know the hours that you 
put in every day in your job? She may want to reconsider.
    Mr. Ambassador, you are on.

  STATEMENT OF THE HONORABLE GERALD M. FEIERSTEIN, PRINCIPAL 
  DEPUTY ASSISTANT SECRETARY, BUREAU OF NEAR EASTERN AFFAIRS, 
                    U.S. DEPARTMENT OF STATE

    Ambassador Feierstein. Thank you so much, Madam Chairman. 
Madam Chairman, Ranking Member Deutch, members of the 
subcommittee, I greatly appreciate this opportunity to come 
before you today to review recent developments in Yemen and the 
efforts that the United States is undertaking to support the 
Government of Yemen under President Abd Rabbuh Mansur Hadi and 
the Saudi-led coalition of Operation Decisive Storm that is 
aimed at restoring the legitimate government and restarting the 
negotiations to find peaceful, political solutions to Yemen's 
internal conflict.
    During the week of April 4th to 11th, I traveled with 
Deputy Secretary of State Antony Blinken to Saudi Arabia, the 
United Arab Emirates and Oman. As part of our consultations, we 
met with President Hadi and members of his team, the Saudi 
Ministers of Foreign Affairs, Defense, and Interior, the 
Emirati Minister of Foreign Affairs, as well as other senior 
Emirati officials in the Ministries of Foreign Affairs and 
Defense and the Omani Minister of State for Foreign Affairs and 
his deputy.
    In all of these engagements, we found a broad degree of 
consistency in their determination to bring operation Decisive 
Storm to a rapid and successful conclusion, to establish that 
no party to the internal conflict in Yemen will be able to 
achieve its objectives through violence and coercion and to set 
the framework for a return to negotiations leading to a clear, 
verifiable commitment on the part of all parties to the 
conflict to implement agreements and complete the political 
transition on the basis of the GCC initiative, the conclusions 
of the National Dialogue Conference, and applicable U.N. 
Security Council resolutions.
    There was also a broad agreement among the Yemeni 
leadership and Yemen's neighbors that Yemen should not be 
allowed to become a locus for foreign intervention that 
destabilizes Yemen or threatens the security and stability of 
Yemen's neighbors and the region at large.
    Madam Chairman, as you know, the conflict in Yemen is 
enormously complicated and has roots that are largely parochial 
and locally focused. Yemen, the poorest country in the Arab 
world with a long history of weak central governance, has for 
many years struggled to meet the needs of its diverse 
constituencies and address their grievances. Those failures of 
governance led to the fall of the previous regime in 2011. 
Reflecting significant engagement by the United States and the 
International Community, the GCC initiative was put in place to 
help Yemen transition to a new, more inclusive government that 
would be responsive to the needs and aspirations of all of 
Yemen's communities.
    The tragedy of the current situation is that the political 
process that the Yemenis established in 2011 was achieving 
success and they had reason to believe that it would lead to a 
more open, democratic, and prosperous nation that was the goal 
of the Yemeni people. Regrettably, that transition has been 
sidetracked by the Houthi movement, aided and abetted by Ali 
Abdallah Saleh and his allies, who decided that they would seek 
to achieve by force what they had been unable to accomplish at 
the negotiating table. We hope that it is only a temporary 
delay.
    We remain deeply concerned about Iranian support for the 
Houthis' military ambitions. To the best of our understanding, 
the Houthis are not controlled directly by Iran. However, we 
have seen in recent years significant growth and expansion of 
Iranian engagement with the Houthis. We believe that Iran sees 
opportunities with the Houthis to expand its influence in Yemen 
and threaten Saudi and Gulf Arab interests.
    Iran provides financial support, weapons, training, and 
intelligence to the Houthis. In the weeks and months since the 
Houthis entered Sana'a and forced the legitimate government 
first to resign and ultimately to flee from the capital, we 
have seen a significant expansion of Iranian involvement in 
Yemen's domestic affairs.
    We are also particularly concerned about the ongoing, 
destabilizing role played by former President Saleh, who since 
his removal from power in 2011 has actively plotted to 
undermine President Hadi and the political transition process. 
Despite U.N. sanctions and international condemnation of his 
actions, Saleh continues to be one of the primary sources of 
the chaos in Yemen. We have been working with our Gulf partners 
in the international community to isolate him and prevent the 
continuation of his efforts to undermine the peaceful 
transition. Success in that effort will go a long way to 
helping Yemen return to a credible political transition 
process.
    Finally, the destabilizing actions of the Houthis and their 
allies have created conditions that are beneficial to AQAP. The 
deterioration of the political situation in Yemen has provided 
new openings for AQAP to regain the ground that is lost in 
recent years, owing to the efforts of the U.S. and Yemeni 
Governments to combat it.
    Only through a negotiated resolution of the ongoing 
political conflict can we resume the cooperation with the 
Government of Yemen to deter, defeat, and ultimately to 
eliminate the AQAP threat to Yemen, the United States, and our 
friends and partners around the world.
    Thank you again for the opportunity to appear before you 
this afternoon. I look forward to answering any questions you 
may have about the situation in Yemen, and our policy 
responses.
    [The prepared statement of Mr. Feierstein follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Ms. Ros-Lehtinen. Thank you so much, Mr. Ambassador. And 
you are certainly an expert in this area. I note that it is 
important to not minimize Iran's role in Yemen or the sectarian 
nature of this conflict, as I believe the administration seems 
determined to do. The administration has so far provided only 
limited logistical support to the Saudi-led coalition. We 
waited to give them the intelligence that they needed, for 
example, to know exactly where to hit. The administration is 
hoping for a political solution without also having our own 
comprehensive strategy in the region. So we are essentially 
outsourcing our Yemeni policy to the GCC and Iran, the Gulf 
countries.
    Are we in conversations with Iran or with Houthi rebels 
about the situation in Yemen? And what is our plan if the 
Houthis refuse to accept a political resolution?
    Ambassador Feierstein. Madam Chairman, we believe that the 
Iranians are well aware of our views and our positions on the 
situation in Yemen. We have been very clear in articulating 
that.
    As far as the Houthis are concerned, we have expressed an 
interest in establishing a dialogue with them, going all the 
way back to frankly the time that I was still in Sana'a. The 
Houthis, up until now, have declined the opportunity to engage 
with us directly. Nevertheless, we have been able to 
communicate with them, to pass messages to them through various 
intermediaries. And again, I believe that the Houthis are fully 
aware of our views and the positions that we have taken on 
their issues going all the way back to the early years of the 
21st century.
    Ms. Ros-Lehtinen. Thank you, sir. You testified that 
current conditions in Yemen are beneficial to al-Qaeda in the 
Arabian Peninsula and that ISIL is an emerging presence in 
Yemen. How large of a presence does ISIL have in Yemen? What 
kind of pressure are we applying against them? And now that our 
Embassy is closed and all of our personnel have been evacuated, 
our intelligence capabilities have been severely restricted. 
What kind of intelligence can we collect without a presence in 
country and what insight do we have into the various factions?
    Ambassador Feierstein. It is a very good question. In terms 
of ISIL, it is extremely difficult for us to have a clear 
picture of the extent to which they are a factor there. As you 
know, they claim credit for several attacks on mosques earlier 
this year. This was the first time that ISIL as an entity 
emerged really in Yemen.
    We would still consider AQAP to be by far the larger and 
more significant threat. We have heard some Yemenis and others 
speculate that what we are seeing is the return of perhaps of 
some Yemeni fighters who were in Syria or Iraq who have come 
back to Yemen and are now operating as ISIL, but I think of 
that as something that we couldn't confirm at this point.
    In terms of the complications in our ability to have a 
clear picture, there is no doubt that the fact that we are not 
present in Yemen at this moment and that we aren't able to 
maintain the level of communications and dialogue and the daily 
interactions that we were able to have with Yemeni counterparts 
while we were there and while President Hadi's government was 
in place, certainly is an obstacle to our ability to continue 
to conduct operations.
    Ms. Ros-Lehtinen. Thank you, sir. Now State and DoD have 
provided a variety of capabilities to Yemeni security forces 
including some sensitive equipment such as night vision 
goggles. With the closure of our Embassy and with the 
relocation of Special Operation Forces from Yemen, it is much 
more difficult to monitor the use of such equipment. What do we 
know in the U.S. Government about the current status of the 
equipment that was previously provided to Yemen? Have they 
fallen into the hands of Houthis, al-Qaeda in the Arabian 
Peninsula, or ISIL?
    Ambassador Feierstein. We haven't seen any direct evidence 
that those items of equipment that we have provided in the past 
have been taken by the Houthis or by other elements. There has 
been some speculation in the press, but we couldn't confirm 
that. We don't have any independent information.
    Ms. Ros-Lehtinen. Thank you. And we have seen reports that 
coalition forces have amassed along the Saudi-Yemeni border and 
that some Saudi forces are already on the ground in Yemen. Do 
you expect to see GCC coalition ground forces in Yemen and what 
would Egypt's role be in such an effort? What role would the 
United States play in such a scenario?
    Ambassador Feierstein. Based on the discussions that we had 
with our counterparts in Riyadh and in Abu Dhabi last week, I 
think that at this point in time what we understand is that 
they don't have any current plans to actually have a ground 
presence inside of Yemen. They are, are you said, moving forces 
to the border. We believe that that is largely for defensive 
purposes. And they are clear that this is something that they 
would consider if they see the requirement. But right now, we 
haven't seen anything.
    As for the Egyptian role, those discussions are ongoing and 
there have not been any commitments that we are aware of on the 
part of Egypt to participate in any kind of ground activity.
    Ms. Ros-Lehtinen. Thank you. And lastly, you testified that 
the humanitarian situation was already dire in Yemen before 
this crisis and that malnutrition, bad sanitation, no access to 
water, internal displacements, are all rising internal 
concerns. What is the U.S. doing to work with Saudi and the 
rest of the Gulf Council nations to prioritize the 
transportation of water, essential food, fuel, and humanitarian 
supplies like medicine into the country and via air and 
seaports?
    Ambassador Feierstein. One of the fundamental items in 
Deputy Secretary Blinken's agenda with our partners in Riyadh 
and in Abu Dhabi was precisely to encourage them, to urge them, 
to ensure that humanitarian access to Yemen was possible. I 
think that the latest information that we have is that the 
picture has improved somewhat. It remains very serious. Nearly 
half of the population in Yemen right now, based on the 
estimates we have seen, is food deprived. So this is a very 
serious situation.
    We are doing a better job, I think, in getting some of the 
humanitarian supplies, not only food, but also medicines and 
other essentially humanitarian goods to Yemen. The internal 
distribution is extremely difficult because of the various 
military activities that are going on around the country, so 
the movement has become complicated. And probably the most 
significant concern that we have right now is the availability 
of fuel which is essential not only for the movement of goods 
and people, but also is essential in order to provide water and 
also bread because the bakeries run on propane gas and without 
propane, they can't bake their bread. So this is having ripple 
effects throughout the economy and making the humanitarian 
situation that much more serious.
    Ms. Ros-Lehtinen. Thank you again for your service, sir.
    Mr. Deutch of Florida, the ranking member, is recognized.
    Mr. Deutch. Thank you, Madam Chairman. Mr. Feierstein, you 
mentioned you just got back from the region and you don't think 
the Saudis this campaign as an open-ended one. Do they think 
there is a military solution? You had said they don't have 
plans to launch a ground war. Do you envision a situation in 
which Saudi or coalition ground troops would go in?
    Ambassador Feierstein. Under the current set of 
circumstances, no. They are looking at various scenarios, but 
they have been very clear with us that that is not where they 
want to go. And the history in Yemen is not favorable for 
foreign ground forces. And I think that the Saudis are well 
aware of that.
    I do believe and based on the conversations that we have, 
the Saudis do not believe there is a military solution to this 
conflict. They understand, as we do, that ultimately the only 
solution is to bring the parties back to the negotiating table 
and their intent is to try to demonstrate through their current 
military activities that a military solution on the part of the 
Houthis or Ali Abdallah Saleh is not achievable, and therefore 
they need to return to negotiations.
    Mr. Deutch. There were two, so far anyway, two stories with 
respect to Iran and Yemen that have arisen today. One reports 
that Iran may be trying to send surface-to-air missiles to the 
Houthis and that the United States is stepping up our 
inspections to ships bound for Yemen. First, on that one, can 
we expect to see greater U.S. involvement as the conflict drags 
on?
    Ambassador Feierstein. I think that at this particular 
moment our intent is to try to support the Saudi coalition and 
our partners. And so what we are doing is aimed at empowering, 
facilitating, enhancing their capacity to take on this mission.
    In the situation of the shipping, we will be taking a very 
careful look at and examining very closely efforts to violate 
the embargo. Of course, we had the arms embargo that was passed 
today by the U.N. Security Council, but we also have long 
standing arms embargo on Iran and any effort on the part of the 
Iranians to export weapons would be a violation of other U.S. 
Security Council resolutions. And we will be looking at ways to 
ensure that that embargo is enforced.
    Mr. Deutch. And Iran allegedly released some draft of a 
peace plan today. Can you comment on that?
    Ambassador Feierstein. Well, I think that the comment we 
have on that is that it is ironic that the Iranians have put 
forward a peace plan that encompasses the four points that we 
were actually trying to implement when the Houthis, with 
Iranian encouragement, blocked the negotiations and created the 
humanitarian crisis that we are confronting today. And so I 
think from our perspective, if the Iranians are serious about 
their peace plan in the first instance they should stop sending 
weapons to the Houthis and they should also give their advice 
to the Houthis that they should be returning to the peace talks 
and the negotiating table.
    Mr. Deutch. That would be sound advice. Mr. Ambassador, has 
this become or does this risk becoming proxy war for regional 
influence between the Saudis and the Iranians?
    Ambassador Feierstein. I think from our perspective, I 
would say that Yemen is a unique situation for the Saudis, that 
this is on their border. It represents a threat in a way that 
no other situation would represent. And while, of course, there 
is concern in the Gulf and we heard from our partners in the 
Gulf about the situation in Syria and Iraq and also their 
concerns about developments in Lebanon and elsewhere in the 
region, I think our sense is that the perception of the 
situation in Yemen is different and more threatening.
    Mr. Deutch. Again, my last question is what do we make of 
the Iran flotilla that has moved in?
    Ambassador Feierstein. We are again tracking it. The 
Iranians, of course, have claimed that they are only there as 
part of the larger international effort to prevent piracy in 
the Bab al-Mandeb and the Red Sea. We will be keeping a careful 
eye on it. We also have significant forces in the area and we 
will be tracking.
    Mr. Deutch. Thank you. Thanks, Madam Chairman.
    Ms. Ros-Lehtinen. They just want to help. They are just 
misunderstood. Thank you, Mr. Deutch.
    Mr. Wilson of South Carolina.
    Mr. Wilson. Again, thank you, Mr. Secretary, and I 
appreciate, too, you and I have something in common in that I 
have two sons who have served in Iraq. One is a physician and 
another is field artillery and I know that you have had a son 
serve there. And then with your background, what a 
distinguished background, and as I stated from the beginning, I 
am just so hopeful for your success because I believe, sadly, 
that as safe havens are created throughout that region and into 
Central Asia and North Africa, that the American people are at 
risk. So we want you to succeed and with that in mind, and you 
referenced that a minute ago and that is what impact do you 
believe the administration's nuclear negotiations with the 
regime in Tehran have had with the support of the Iranian 
Government to be provided to the Houthis?
    Ambassador Feierstein. Thank you very much, Congressman 
Wilson, for your kind words. In terms of the relationship or 
any correlation between the nuclear talks and the situation in 
Yemen or more broadly in the region, I think that our 
perspective is that what we have achieved by establishing the 
framework for an agreement that, of course, we hope is 
completed by the end of June, that this is something that will 
contribute to regional security and stability and that 
certainly one of the things that we discussed with our friends 
in the region and I think that President Obama, when he meets 
with the GCC leaders in summit in a few weeks, will also make 
clear that despite the negotiations on the nuclear account and 
despite what we hope is an agreement to block any further 
Iranian effort to acquire a nuclear weapon, nevertheless, the 
other concerns that we have about Iranian activities including 
in areas like Yemen have not changed and that we will continue 
to pursue aggressively a program of confronting and challenging 
any Iranian efforts to destabilize the region.
    Mr. Wilson. And I see, actually, a direct relationship of 
the negotiations and what's going on in Yemen and that is 
untruthfulness. The Iranian regime has indicated that they have 
no presence, no support, no interest whatever, and then as 
correctly pointed out, an armada of ships appears off the 
coast. But with proven untruthfulness, I just can't imagine 
that we would be placing faith in regard to their now denial of 
developing a nuclear capability while they are building a 
missile system. And so do you see the relationship of 
untruthfulness?
    Ambassador Feierstein. I think that certainly Iranian 
behavior merits very close observation and I don't think that 
it is the intent of the administration to place any faith 
whatsoever in what the Iranians say. The important thing is to 
establish a very tight system of verification that would enable 
us to see if, in fact, the Iranians are cheating or otherwise 
violating the terms of any agreement that we might reach. So I 
don't think there is any trust or faith involved in this.
    Mr. Wilson. I appreciate your concern there. And what 
impact do you believe that depletion of Yemen's oil reserves as 
early as 2017 will have on the Houthi relationship with other 
nations in the region?
    Ambassador Feierstein. Well, I think more broadly, of 
course, one of the issues and one of the things that we as the 
United States were working on, along with our international 
partners, was the effort to try to provide Yemen with a 
foundation for economic development. We recognize that it is 
the failure of the government to provide for its people, the 
failure to provide any kind of economic horizon or any optimism 
for the future is feeding into these issues, not only with the 
Houthis, but with AQAP and other violent extremist 
organizations. And so one of the things, as we go forward, not 
only to try to resolve some of the outstanding political 
issues, but also to work on these economic issues and to 
provide for our future. Having spent 3 years in Yemen, I can 
say that I was always optimistic that given an opportunity, 
Yemen could actually develop and provide for its people 
economically. Unfortunately, the political situation, the 
security situation, have undermined their ability and our 
ability to really build that kind of a future.
    Mr. Wilson. Well, I appreciate your service there. I know 
it must be very distressing to you to see the current 
condition, but your service means a lot to the American people. 
Thank you, and I yield back.
    Ms. Ros-Lehtinen. Thank you, Mr. Wilson, and thank you to 
your family for the valuable contribution to keeping our 
homeland safe. Thank you. Mr. Cicilline.
    Mr. Cicilline. Thank you, Madam Chairman. Thank you, Mr. 
Ambassador. First, I would like to ask you as much as you can 
share in an open setting, would you speak to how the current 
conflict has impacted our counterterrorism efforts within 
Yemen? You mentioned in your opening remarks that AQAP is 
taking advantage of this opportunity and my question really is 
do we have in place an alternative counterterrorism plan that 
will continue to disrupt AQAP and ISIS operations? What is the 
relationship of these three groups on the ground? Are they 
coordinating? But during this period of unrest, how are we 
protecting American security interests?
    Ambassador Feierstein. It is a challenge. And certainly in 
the efforts that we have been making over the past several 
years with the support of President Hadi and his government, a 
lot of our cooperation or a lot of our effort was dependent on 
the cooperation that we were receiving from the Yemenis and 
that really enabled and expanded our ability to act effectively 
against violent extremist organizations. That, of course, both 
because we are not physically present in Yemen right now and 
because of the overall collapse of the Government of Yemen, 
that kind of cooperation is no longer viable, at least for the 
moment.
    What we are trying to do, of course, is that to the extent 
possible, we will continue to use our own independent means to 
gather intelligence and to try to understand what is happening 
in Yemen, but it is not as effective or efficient as it would 
otherwise be. And so our effort is really as part of a return 
to a political negotiation and hopefully the restoration of a 
legitimate government in Sana'a to be able to resume the kind 
of cooperation that we had earlier on.
    In terms of the interactions of the various extremist 
organizations, it is very difficult to say. We really don't 
have much of an understanding of ISIL or what their 
relationships are, who they are. It is possible, of course, 
that they are simply people who are using that name because 
they believe it adds a certain amount of veracity to what they 
are trying to do. So in the absence again of any kind of 
presence on the ground or ability to really collect 
intelligence, it is difficult to say.
    Mr. Cicilline. And Mr. Feierstein, in light of the current 
situation in Yemen, are there any changes that need to be made 
to the administration's FY 16 request for Yemen to reflect 
these realities or to reflect an adjustment in the policy goals 
for Yemen?
    Ambassador Feierstein. It is something that we are looking 
at and I think that we will adjust. I mean, obviously, our hope 
would be that if we can get the situation stabilized and get 
the political process going again, that we would be able to 
return and that we would be able to continue implementing the 
kinds of programs that we were trying to achieve that are aimed 
at economic growth and development as well as supporting 
democratic governance and the opportunity to try to build 
solid, political foundations for the society. At this 
particular moment, we can't do that, but it is hard to predict 
where we might be in 6 months or 9 months from now.
    Mr. Cicilline. Thank you, and Mr. Feierstein, my final 
question is the United Nations reports that Yemen relies on 
imports for 90 percent of its staple food and we can surmise 
that as a result of the conflict that there will be disruption 
and obviously the World Food Program reports that 10 million 
people, 42.5 percent of the population were already unable to 
meet their basic food needs. So would you speak a little bit 
about what we are doing, what the Kingdom of Saudi Arabia is 
doing to ensure that the food is getting to the right places, 
that the transportation is being permitted, that medicine is 
getting in and also are we tracking it? Do we have some 
oversight to be sure that it is actually getting to the people 
who need it because this has all the makings of a catastrophic 
humanitarian crisis?
    Ambassador Feierstein. Yes, sir. And again, I think, one, 
of course, the United States is and has been traditionally the 
largest donor to World Food Program, UNICEF, other 
international organizations that are providing humanitarian 
relief to the Yemeni people and will continue to do that. There 
has not been any interruption in our support for humanitarian 
assistance.
    Secretary Blinken, during this visit to Riyadh and to Abu 
Dhabi, had at the top of his agenda urging our partners in the 
Gulf to ensure that they made accommodations to allow for 
humanitarian relief supplies to reach Yemen. And our 
understanding from what we are seeing over these last several 
days is that, in fact, the flow of humanitarian goods into 
Yemen has improved. Two ships carrying wheat have arrived at 
Yemeni ports. ICRC and Medecins Sans Frontieres and UNICEF have 
been able to get relief supplies in by both ship and plane over 
the last several days. And so we are seeing improvements on 
that side, but the internal distribution, as you pointed out, 
the internal distribution remains problematic.
    Understand that, for example, truck drivers are very 
concerned, unwilling to move because of the fighting in the 
country. There are fuel shortages that complicate that. And so 
internally, we are still seeing difficulties getting the 
necessary supplies to the right places. It is something that we 
are discussing with our partners in the humanitarian community 
and we will see if we can improve it.
    Mr. Cicilline. Thank you, Mr. Ambassador. I yield back, 
Madam Chairman.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Cicilline. Mr. 
Yoho.
    Mr. Yoho. Thank you, Madam Chair. Ambassador, is it 
Feierstein or Feierstein?
    Ambassador Feierstein. I say Feierstein. My parents said 
Feierstein.
    Mr. Yoho. Well, good. I am satisfying both of you. What 
warning signs were there present prior to the fall of the Hadi 
government? What did we see? Did we know this was coming or was 
this kind of out of the blue?
    Ambassador Feierstein. The situation with the Houthis has 
been complicated for a long period of time and we have been in 
a situation when we had the initial uprising, the political 
uprising in 2011 and '12, the Houthis were part of the 
opposition to the Saleh regime. And there was a strong desire 
on the part of all of the political groups in Yemen to see if 
they couldn't bring them into the political process. I think 
there was a broad understanding that the Houthis had legitimate 
concerns and legitimate grievances about the way they had been 
treated over the years. And there was a hope that they could be 
accommodated through the negotiations and through the 
implementation of the GCC initiative in a way to make them a 
part of the larger political fabric. And that was really the 
main effort for a long period of time.
    Unfortunately, low-level conflict continued throughout that 
period between the Houthis and some of the other elements, some 
of the conservative Sunni elements of the society and that 
flared up last summer in an area, in the northern part of the 
country near the traditional Houthi area in a place called----
    Mr. Yoho. Let me interject in here. So what you are saying? 
And I think what I am hearing is the Houthis didn't feel like 
they were involved sufficiently in the Hadi government. They 
didn't have enough input? Is that----
    Ambassador Feierstein. They weren't technically part of the 
Hadi government. They didn't have any seats in Hadi government. 
They were part of the larger political process. They were 
participants in the National Dialogue Conference and in the 
implementation of the GCC initiative.
    Mr. Yoho. And will Khaled Bahah's appointment as Vice 
President help be sufficient to satisfy what they are looking 
for as far as representation? And the other part of that 
question is does the appointment of Mr. Bahah as Vice 
President, does that weaken President Hadi's effectiveness if 
he were to go back into power?
    Ambassador Feierstein. The appointment of Khaled Bahah as 
prime minister last September was one of the elements that 
resolved the first confrontation with the Houthis, last 
September when they signed an agreement. And they approved the 
appointment of Khaled Bahah as the prime minister.
    Yesterday or the day before yesterday, when he was named as 
the Vice President, they objected, not because they have any 
concern about him. He is, I think, somebody who is universally 
respected inside of Yemen, but because they objected to the 
process that led to his appointment. But we do think that he is 
someone who is acceptable to all of the elements of society. We 
don't think that it would undermine the legitimacy of President 
Hadi's government. In fact, it accomplishes something that 
President Hadi had been encouraged to do for a long period of 
time.
    Mr. Yoho. Do you see him with a resolution of this 
conflict? Do you see President Hadi coming back and running 
that country?
    Ambassador Feierstein. I think both the United States and 
more broadly, the International Community, see that the 
legitimacy----
    Mr. Yoho. They see him as a legitimate President?
    Ambassador Feierstein [continuing]. Is still with President 
Hadi. What exactly the format might be that would bring him 
back to Sana'a is negotiable. And if there is some other format 
that would be acceptable to the Yemenis, would be acceptable to 
us.
    Mr. Yoho. And we have known for a long time that the 
Iranian influence with the Houthis has been there for a long 
time. Have you seen their interference in this conflict more 
prevalent than it has been in the past?
    Ambassador Feierstein. Yes.
    Mr. Yoho. You have seen it step up?
    Ambassador Feierstein. Yes.
    Mr. Yoho. Do you have any feeling that there is an increase 
of that activity due to the Iranian nuclear negotiations that 
we are going through? Have they been emboldened more?
    Ambassador Feierstein. We believe that there are a number 
of factors that are feeding into Iran, a sense that it has the 
upper hand was because of its engagement elsewhere in the 
region, because of the weakness or the disarray within the 
Sunni community, the Iranians may be emboldened. I think our 
sense is that the Iranian nuclear negotiations would not be a 
factor.
    Mr. Yoho. I find it interesting that the Iranians have 
stepped up their involvement and have taken over four capitals 
and we see a big influence of them in Venezuela. All this time 
when they have been under sanctions and they are supposedly 
struggling internally, yet we see more influence. In fact, they 
just purchased that missile defense system from Russia for $800 
million and it doesn't look like a country that is in financial 
constraints or having difficulties making its presence. I think 
for them to step forward and show this kind of leadership in 
that region is certainly not the kind of leadership I want to 
see. I would think the influence that we have with Saudi 
Arabia's would be stronger. What are your thoughts on that?
    Ambassador Feierstein. Well, certainly I think that what we 
would like to do is see. You know, we have the nuclear 
agreement now. I think our view is that potentially that could 
contribute to regional security and stability. Certainly, the 
support that we are providing to Saudi Arabia and the Saudi 
coalition and Operation Decisive Storm is an important element 
and an important opportunity for us to demonstrate to our 
friends in the region that despite the nuclear negotiations and 
the framework agreement, our commitment to their security and 
stability is not affected, and that we will continue to 
confront and challenge Iranian activity where we see it playing 
a negative role in the region.
    Mr. Yoho. Ambassador Feierstein, I appreciate your time. I 
yield back.
    Ms. Ros-Lehtinen. Thank you, Mr. Yoho. Ms. Meng of New 
York.
    Ms. Meng. Ambassador, I thought that when the campaign 
started the Saudis were very smart to brand this as a pan-Arab 
effort. But with the rising of civilian casualties, can you 
give us a sense of the perspective of this on the Arab street 
today?
    Ambassador Feierstein. It varies. And I do believe that 
broadly on the Arab street that there is a great deal of 
support for what the coalition is trying to accomplish in a 
sense that it is appropriate for the Saudis to take a 
leadership position in confronting Iranian malign intent.
    Within Yemen, of course, the situation is a little bit 
different and the concerns about some of the civilian 
casualties is obviously, and understandably much higher. We, as 
one of the elements of our support, and one of the things that 
we're trying to accomplish in providing support to the 
international coalition is precisely to help them avoid those 
kinds of civilian casualties and to ensure that when they are 
going after a particular target, that they are doing everything 
possible to make sure that there is no collateral damage.
    Ms. Meng. My last question, it appears that Turkey and 
Pakistan have backed off their initial support for this 
operation. Can you speak about that and do you foresee this new 
found Arab coalition working effectively together beyond Yemen?
    Ambassador Feierstein. I think for Turkey and for Pakistan, 
the issue is more complicated. I can speak a little bit, am I 
am more familiar with the situation in Pakistan than in Turkey. 
But in Pakistan, you have, of course, a long border with Iran, 
an important relationship between Pakistan and Iran, as well as 
an important and long-standing relationship with Saudi Arabia. 
And so for the Pakistanis, this was probably a situation where 
they didn't see, frankly, that there was a good way forward for 
them to participate. They have been very clear in saying that 
they would be absolutely committed to supporting Saudi Arabia 
if there were any kind of threat to Saudi Arabia specifically, 
but in the case of Yemen, a little bit more complicated for 
them and probably something that politically inside of Pakistan 
would have been extremely difficult.
    Ms. Ros-Lehtinen. Thank you very much, Ms. Meng. Mr. 
DeSantis, my wonderful colleague from Florida.
    Mr. DeSantis. Thank you, Madam Chairman. I think this is an 
important topic. I am going to get to this, but we just got the 
news over the wire that the President is planning on removing 
Cuba from the list of State Sponsors of Terrorism. Now this is 
something that, although outrageous for us, is something that I 
think was expected. I think it was baked in the cake. But I 
think it is really, really troubling when--Cuba hasn't done 
anything. They have given no concession. They haven't done 
anything on behalf of their people there. They are arresting 
more people, repressing more people since we have had this 
change. They have harbored somebody on the FBI's list of most 
wanted terrorists. Nothing is being done. This is just a pure, 
unadulterated concession with absolutely no basis or grounding 
in facts.
    I was happy to lead a special order on the floor last night 
with some of the post-9/11 veterans who were in Congress and 
the two countries that we seem to have better relationships 
with now, Iran and Cuba. The question is what have we received 
in return for that? Mostly, it is just us giving concessions to 
these countries. And I think a foreign policy based on the idea 
that we are going to be dancing with dictators is not a foreign 
policy that is going to succeed. And I think it is really 
alienating us from a lot of our allies and tragically, I think, 
is leaving people who are fighting for freedom in places like 
Cuba, completely in the lurch. This is not going to be the last 
that we talk about this, I know, but it is really, really 
disappointing.
    Sorry about that, Ambassador. I know that is not your cup 
of tea, but it is something that we work on on this committee 
and I know that the chairwoman especially has done it for a 
long time.
    Did the State Department approve President Obama's remarks 
in September when he announced the campaign against ISIS and he 
cited Yemen as a success?
    Ambassador Feierstein. I am not entirely sure.
    Mr. DeSantis. Because I know there was a lot of discussion 
back when Bush was President about approving the WMD passages. 
Is it standard that that goes through State when a President 
makes a major speech about foreign policy or is it just kind of 
the State has got to respond to what the White House said? I am 
just not even clear about how the process normally works.
    Ambassador Feierstein. I think as a matter of principle, it 
is up to the President to decide how he wants to prepare his 
speeches.
    Mr. DeSantis. Once this statement was made and Yemen was 
cited as an example of success, were there concerns in the 
State Department that were raised about that given, the actual 
reality on the ground in Yemen at the time?
    Ambassador Feierstein. I would say that the record of our 
activities in Yemen from 2011, 2012, until quite recently, in 
terms of the effectiveness of our unilateral actions against 
AQAP, as well as the cooperation and the ability of the United 
States to partner effectively with our counterparts inside of 
Yemen was positive. And as a result of what we were able to 
accomplish together, we saw a number of positive developments 
in terms of taking some of the leadership elements out of AQAP 
off the table and also forcing AQAP to change its strategy. 
When the political crisis came in Yemen in 2011, AQAP was able 
to take advantage of that and increase its territorial control 
to the extent that they were actually declaring areas of the 
country to be an Islamic caliphate, not unlike what we see with 
ISIL in Iraq and Syria these days.
    And because of our cooperation, primarily our cooperation 
with Yemeni security forces, we were able to defeat that at a 
significant loss of life for AQAP. As a result of that, they 
changed their tactics. They went back to being a more 
traditional terrorist organization. They were able to attack 
locations inside of Sana'a and elsewhere. But the fact of the 
matter is that we were achieving progress in our ability to 
pressure them and to keep them on the defensive as opposed to 
giving them lots of time. And remember, in 2009, in 2010, we 
saw AQAP mount fairly serious efforts, the underwear bomber and 
then also the cassette tape effort, to attack the United 
States. After 2010, they were not able to do that, despite the 
fact that their intent was still as clear and as strong as it 
was before.
    And so while AQAP was by no means defeated, and continued 
to be a major threat to security here in the United States, as 
well as in Yemen and elsewhere around the world, nevertheless, 
I think that it was legitimate to say that we had achieved some 
success in the fight against AQAP. Unfortunately, what we are 
seeing now because of the change in the situation again inside 
of Yemen is that we are losing some of the gains that we were 
able to make during that period of 2012 to 2014. And that is 
why it is so important that we have the ability to get the 
political negotiations started again so that we can re-
establish legitimate government inside of Sana'a that will 
cooperate with us once again in this fight against violent 
extremist organizations.
    Mr. DeSantis. Great. My time has expired. I appreciate 
that. There was a lot there and I yield back.
    Ms. Ros-Lehtinen. Thank you, Mr. DeSantis, and I look 
forward to watching the video of your remarks along with our 
other vets last night. Congratulations.
    I wanted to ask an additional question, so the members can 
as well. Because of its geographic location, Yemen is so close, 
just a little short boat ride away from Africa, for example. 
Eritrea is right there and very unstable. Do you worry about 
were the movement to take place that the Houthi rebels, ISIL or 
whatever faction of terrorist organization could very well move 
their troops a little boat ride away and be in yet another area 
where they can control that land and destabilize an already 
troubled region?
    Ambassador Feierstein. We certainly worried a lot about 
linkages between particularly the AQAP in Yemen and Shabab in 
Somalia. And we knew, for example, that Shabab was sending some 
of their people across to Yemen to receive training and so as 
you say, quite correctly, the distances are very short. We are 
talking about from Yemen to Djibouti, maybe 20 miles by sea. So 
it is very close by. And it is something that would be of 
concern to us. And again, as part of our efforts against both 
AQAP and Shabab, it was something that were trying to monitor 
and defeat aggressively.
    Ms. Ros-Lehtinen. Well, I do worry about it because we have 
a lot of American personnel, Embassies, consulates, we have a 
presence throughout that region. So that is a worrisome future 
development perhaps. Thank you, Mr. Ambassador. Mr. Deutch.
    Mr. Deutch. I just have one more question also. With the 
coalition focused as it is on the Houthis, and since we have 
lost at least for now our counterterrorism partner in the 
Yemeni Government and military, what pressure is there to the 
extent there is any on al-Qaeda and ISIS as well?
    Ambassador Feierstein. We, of course, to the extent that we 
can, it is more limited now, but to the extent that we can we 
will continue to engage AQAP unilaterally in order to try to 
disrupt or defeat any threats against us. When Secretary 
Blinken was in the region, it was also an issue that we raise 
with the Saudis, in particular, and urged them also as part of 
their effort to go after AQAP targets as well as other targets 
so that we can continue the pressure.
    Mr. Deutch. Can you tell us how that was received?
    Ambassador Feierstein. They agree, of course, because AQAP 
is a direct threat to their security, too.
    Mr. Deutch. And have we seen that happen?
    Ambassador Feierstein. I can't say for certain, whether we 
have given them any AQ targets to go after or whether they have 
been effective in servicing those.
    Mr. Deutch. I appreciate it. Thank you, Mr. Ambassador.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Deutch. Mr. Yoho.
    Mr. Yoho. Thank you, Madam Chair. Just kind of a follow-up 
question, with the administration coming out and saying that it 
is a success over there back in September and they are still 
touting that as of March 24th or 25th, I have here in an 
article, how can we be that far off? I know you explained the 
counterterrorism portion, but yet to have a country taken over 
while we are sitting there working with them and this happen, I 
feel it just kind of happened over night, the way our Embassy 
got run out of town and just say you have to leave, your 
Marines cannot take their weapons with them. I don't understand 
how that happens or how we can be that disconnected.
    What are your thoughts on that? Is it just denial or is 
it--I don't know what it is. I am confused because before you 
answer, it says its counter intuitive claim puzzles national 
security experts and it says it enrages--it says Republicans, 
but I am sure it enrages a lot of people. I am just kind of 
baffled.
    Ambassador Feierstein. You know, it was very frustrating. 
Again, I think that if you go back to where we were a year ago, 
the successful conclusion of the National Dialogue Conference 
which was really the last major hurdle in completion of the GCC 
initiative. Houthis participated in that. They participated in 
constitutional drafting exercise which was completed 
successfully. And so we were in the process of moving through 
all of the requirements of the GCC initiative that would allow 
us to complete successfully the political transition.
    I think there were a combination of things. One that there 
was a view on the part of the Houthis that they were not 
getting everything that they wanted. They were provoked in our 
view by Ali Abdallah Saleh who never stopped plotting from the 
very first day after he signed the agreement on the GCC 
initiative. He never stopped plotting to try to block the 
political transition. And there was, to be frank, there was a 
weakness in the government, an inability on the part of the 
government to really build the kind of alliances and coalition 
that would allow them to sustain popular support and to bring 
this to a successful conclusion.
    And so I think that all through this period, there was a 
sense that we were moving forward and that we believe that we 
could succeed in implementing this peaceful transition, and yet 
we always knew that on the margins there were threats and there 
were risks. And unfortunately, we got to a point where the 
Houthis and Ali Abdallah Saleh, my personal view is that they 
recognized that they had reached the last possible moment where 
they could obstruct the peaceful, political transition that was 
bad for them because it would mean that they wouldn't get 
everything that they wanted. And so they saw that time was 
running out for them and they decided to act and unfortunately, 
the government was unable to stop them.
    Mr. Yoho. I appreciate it. And it just concerns me 
extremely, a lot, that we are calling this a success and we 
missed the mark way past the mark. If we are missing this, what 
else are we missing in our foreign policies?
    Can I ask one other thing? We have invested $900 million 
since 2011, roughly. It doesn't seem like we have gotten the 
bang for our buck in our foreign policy. In your opinion, how 
would you direct foreign policy in a country like Yemen to 
where we get the results we want?
    Ambassador Feierstein. It is a good question. And what I 
would say is that in a place like Yemen, we have to recognize 
what the limitations are in those societies. And accept the 
fact that if we are going to make a difference, it is going to 
be a very long-term investment on our part. It is unfortunate 
that Yemen has taken a turn that it has taken. I don't think 
that the situation is irretrievable. I think that with some 
effort on our part and the part of the rest of the 
International Community, we can get it back on track. And then 
I would hope that we would then stay with it and help the 
Yemeni people achieve a good outcome. They are good people. 
They are people who probably deserve a lot better than they 
have gotten and it would be good if we could a part of the 
success.
    Mr. Yoho. Ambassador, I appreciate your time. Madam Chair, 
thanks for the indulgence.
    Ms. Ros-Lehtinen. Thank you so much. Thank you, Mr. Yoho.
    And Mr. Ambassador, Yemen is a quickly-moving terrain, so 
we would appreciate if you could keep our subcommittee abreast 
of any developments. We don't have to have a formal hearing. We 
can have a meeting in one of the meeting rooms. Thank you for 
being accessible. There are lots of moving parts and we would 
like to be abreast of every development. Thank you, sir.
    Ambassador Feierstein. Thank you. It would be my pleasure.
    Ms. Ros-Lehtinen. Your testimony was excellent and with 
that, the subcommittee is adjourned.
    [Whereupon, at 3:28 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


                  Material Submitted for the Record

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre></body></html>
